No. 20-7909

IN THE

Jgmpremc CCmxrt of the 3-Initcb J^tates
Juan Pablo Price,

Petitioner,
v.
United States of America,

Respondent

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

REPLY BRIEF FOR PETITIONER

Cuauhtemoc Ortega

Federal Public Defender
Central District of California
Jonathan D. Libby*

Deputy Federal Public Defender
* Counsel of Record
321 East 2nd Street
Los Angeles, California 90012-4202
Telephone: (213) 894-2905
Facsimile: (213) 894-0081
Jonathan_Libby@fd.org
Attorneys for Petitioner

TABLE OF CONTENTS

PAGE

REPLY BRIEF FOR PETITIONER

1

CONCLUSION

9

i

TABLE OF AUTHORITIES

PAGE

Federal Cases

Flores-Figueroa v. United States,
556 U.S. 646 (2009)

5, 6

Jackson v. Virginia,
443 U.S. 307 (1979)

2, 3

Liparota v. United States,
471 U.S. 419 (1985)

5

Neder v. United States,
527 U.S. 1 (1999)....

2, 3, 4

Rehaif v. United States,
139 S. Ct. 2191 (2019)

5, 6

Schlup v. Delo,
513 U.S. 298 (1995)

3

United States v. Bruguier,
735 F.3d 754 (8th Cir. 2013) (en banc)

6

Federal Statutes
18U.S.C. § 2241

6

18 U.S.C. § 2242(2)

6

18 U.S.C. § 2243

6
1, 5, 6, 7, 8

18 U.S.C. § 2244(b)
Miscellaneous

North American Airport Traffic Report - Airports Council International
- North America, available at
https://airportscouncil.org/intelligence/north-american-airporttraffic-reports/

7

Sexual Abuse Act of 1986, Pub. L. No. 99-646, § 87(b), 100 Stat. 3592,
3620-23

6

n

IN THE SUPREME COURT OF THE UNITED STATES
No. 20-7909

JUAN PABLO PRICE,
Petitioner,
- v. -

UNITED STATES OF AMERICA,
Respondent
ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
REPLY BRIEF FOR PETITIONER

Perhaps most striking about the government’s brief in opposition is that at no
point does it assert that the Ninth Circuit majority’s legal conclusion regarding the

requirements of 18 U.S.C. § 2244(b)—the issue in Mr. Price’s petition—was
correct. Not once. Never. It does claim that the “court of appeals correctly affirmed

petitioner's conviction,” BIO 9, but its entire argument is premised not on the

correctness of the legal decision (which, based on its silence, the government tacitly

appears to concede was erroneous) but on the panel’s alternative holding—also
erroneous—that any error was harmless, BIO 9-13. It is thus quite convenient that

after ignoring the legal question presented in this case, the government then
proceeds to argue that certiorari is “rarely granted” when a case turns on

“factbased” harmlessness grounds, and “the misapplication of a properly stated rule
of law.” BIO 9-10, 12-13 (quoting Sup. Ct. R. 10). But wishing it so does not make

it true.
1

The legal issue presented in Mr. Price’s petition—whether the knowledge
requirement in § 2244(b) applies to all elements of the offense, such that the

government must prove both that the defendant knowing engaged in sexual contact
with another person and that defendant knew he lacked that other person’s
permission—is not fact-based in any way. It’s a straightforward issue of statutory
construction in a case where the court of appeals did not correctly state the rule of

law. And the Ninth Circuit panel based its harmlessness decision on a
misapplication of harmless error caselaw, as Judge Collins explained below. Pet.

App. 103a-108a (discussing the requirements for harmlessness review under Neder
v. United States, 527 U.S. 1 (1999), and other Court precedents, and explaining that

“[t]he panel’s harmless error analysis is legal flawed under these standards”). Rule

10 simply does not apply. If anything, the Ninth Circuit panel’s—and

government’s—misstatement and misapplication of the law for harmless error

review further supports the need for this Court to review this case to correct those
misunderstandings involving the secondary question subsumed within the question
presented (and argued in the Petition), i.e., whether the error here was harmless.

A brief discussion on those misunderstandings is thus warranted. Contrary
to the court of appeals’s understanding below (and the government’s argument

here), Neder instructs that the failure to have a jury determine a required element
in a criminal case is not harmless if the defendant presented sufficient evidence to

permit a finding in his favor. Neder, 527 U.S. at 19. The question is not what a
court believes a reasonable jury would have found, but what a reasonable jury could
have found, given the evidence in the record. See id. And perhaps most

importantly, in reviewing for harmlessness under these circumstances, the evidence

must be viewed in the light most favorable to defendant. Cf. Jackson v. Virginia,
443 U.S. 307, 319 (1979) (explaining how to conduct a sufficiency-of-evidence review
2

in the context of determining whether the evidence was sufficient to convict). It is

not for an appellate court to weigh and discount testimony; it is the jury’s role to
assess the weight and credibility of any testimony. See Schlup v. Delo, 513 U.S.
298, 330 (1995) (citing Jackson, 443 U.S. at 319).

In Neder, the defendant was convicted of federal charges involving tax fraud.

Although materiality was an element of the crime, the district court refused to
submit the materiality issue to the jury. Id. at 4. Neder applied harmless error
review, but it explained that because the omitted element was never submitted to a
jury, the review must focus on “whether the record contains evidence that could

rationally lead to a contrary finding with respect to the omitted element.” Id. at 19
(emphasis added). If, after a “thorough examination of the record,” the reviewing
court “cannot conclude beyond a reasonable doubt that the jury verdict would have

been the same absent the error—for example, where the defendant contested the

omitted element and raised evidence sufficient to support a contrary finding—it
should not find the error harmless.” Id. (emphasis added).

But here, as Judge Collins explained, the Ninth Circuit panel concluded that
simply “by convicting Price, the jury necessarily ‘believed A.M.’s story of what
occurred on the flight over Price’s story.’” Pet. App. 106a (quoting Pet. App. 52a,

71a-73a). And the panel then “construe[d] the record in the light most favorable to

the Government, and conclude [d] that, under A.M.’s version of events, ‘no
reasonable juror could have found that Price subjectively believed’ that he had
permission.” Pet. App. 106a (quoting Pet. App. 53a) (emphasis in original). “The

problem with this approach is that, on the record of this trial, the jury could easily
have found that Price lacked objective permission even if it believed his version of

events. Thus, the fact that the jury convicted under the (deficient) instructions

3

given in this case does not necessarily mean that the jury disbelieved any, much less

all, of Price’s testimony.” Pet. App. 106a.
Indeed, here, there plainly was evidence sufficient to support a jury finding

that Mr. Price did not know he did not have permission to engage in sexual contact
with A.M.. Mr. Price expressly testified that when A.M. had gotten up and moved

away from him following the sexual contact, he “thought she just changed her mind
somehow. She just had a different attitude all of a sudden.” ER 871.1 And that

change in her attitude left him “a little upset.” ER 871. He explained that he “felt
like if she -- if she had changed her mind, if she was bothered by - if she decided

that she didn’t want to go any farther with what we were doing, that she could have

just told me. She could have just - she didn’t have to move away without saying
anything.” ER 871-872. He also explained that when the flight purser later told

him a passenger had said she had been “violated,” that he “just couldn’t believe it”

because “the whole time . . . we have been engaged in a sexual act - touching that
was - that I was completely sure that it was consensual. And so why would she do

that? Why would she turn against me like that? I did not know. And I just - I was
very, very upset.” ER 872. This is all evidence supporting the conclusion that Mr.

Price did not know he lacked permission to engage in sexual contact with A.M.—the
element the jury was not permitted to decide. He expressly testified that he

thought the encounter was consensual.
Was the jury free to reject Mr. Price’s testimony? Of course. But that does

not mean that there wasn’t testimony from which it could have concluded that Mr.
Price believed the sexual contact was consensual, i.e., with A.M.’s permission. And

Neder does not permit appellate judges to simply conclude that every juror

1 “ER” refers to the Excerpts of Records submitted in the Ninth Circuit.

4

“necessarily” would have rejected Mr. Price’s testimony regarding the omitted
element merely because they did not believe him based on a reading of the cold

record. On this point, Judge Collins was correct and the panel and government
were wrong on what the law requires, and what appellate courts may consider, for
harmless error review.

In addition, in its apparent effort to obscure the Ninth Circuit’s erroneous
interpretation of the requirements of § 2244(b), and the need for this Court’s review,

the government makes the rather absurd argument that no conflict exists between
the panel majority’s decision and decisions of this Court because “[n]one of the cases
that petitioner cites involved Section 2244(b),” and thus review by this Court is
unnecessary. BIO 9, 14-15 (citing Rehaif v. United States, 139 S. Ct. 2191 (2019)

(interpreting a firearms statute); Flores-Figueroa v. United States, 556 U.S. 646

(2009) (interpreting an identity-theft statute); Liparota u. United States, 471 U.S.

419 (1985) (interpreting a fraud statute)). Seriously? Yes, it’s true, none of this

Court’s cases cited by Mr. Price—for how a statute must be interpreted—involved §
2244(b). But so what? Rehaif involved interpretation of the federal gun possession
statutes but none of the cases this Court relied on there for interpreting that statute

involved those statutes. Flores-Figueroa (one of the cases relied on in Rehaif

by

Mr. Price here) involved the identity theft statute, but it didn’t rely on cases

involving identity theft for applying the rules of statutory construction. This Court

relied on the very same cases Mr. Price has cited here—the ones the government
apparently thinks aren’t applicable-—for the applicable rules of statutory

construction. And the fact remains that the Ninth Circuit’s decision that needs to

be reviewed here violates, i.e., conflicts with, the rules of statutory construction
explained in those cases. Had the Ninth Circuit panel majority correctly applied
this Court’s precedents, it could not have interpreted § 2244(b) the way it did—as

5

Judge Gilman and Judge Collins explained in their opinions. Pet. App. 32a-51a;

73a-108a.

The same is true with respect to the conflict created with the Eighth Circuit’s
en banc decision in United States v. Bruguier, 735 F.3d 754 (8th Cir. 2013) (en banc)

(interpreting 18 U.S.C. § 2242(2)). Although the government disingenuously argues

that the Eighth Circuit’s decision does not conflict with the Ninth Circuit’s decision
here (BIO 14-15), the fact remains that § 2244(b) and § 2242(2) are nearly identical

in structure and were both part of the same Sexual Abuse Act of 1986, Pub. L. No.
99-646, § 87(b), 100 Stat. 3592, 3620-23 (codified as amended at 18 U.S.C. §§ 224144, 2246), as discussed in Mr. Price’s petition. Pet. 17-18 & n.10. See also Pet. App.

41a-44a (discussing the similarities between the statutes and concluding that “the
Eighth Circuit’s analysis . . . applies equally to § 2244(b)”). Section 2244(2) makes it

a crime to “knowingly . . . engage [] in a sexual act with another person if that other
person is—(A) incapable of appraising the nature of the conduct; or (B) physically

incapable of declining participation in, or communicating unwillingness to engage
in, that sexual act.” The only difference with § 2244(b) is that it’s a bit longer and

substitutes a handful of words. The Eighth Circuit rightly concluded that the

knowledge requirement applied both to engaging in a sexual act (as compared to
“sexual contact” in § 2244(b)), and to the victim’s incapacity or inability to consent
(as compared to “the other person’s permission” in § 2244(b)). Bruguier, 735 F.3d at

757-58, 760-61. The reasoning there (relying on the same precedents from this
Court discussed above) is in unequivocal conflict with the Ninth Circuit’s decision
here. And similar to its dismissal of this Court’s holdings in Rehaif and Flores-

Figueroa, and other precedents of this Court, the Ninth Circuit majority dismissed
the Bruguier decision as simply “not affecting” its analysis. Pet. App. 23a n.3.

6

r

But while it’s true that no other circuit has expressly addressed in a
published opinion how § 2244(b) should be interpreted, given the Ninth Circuit’s
oversized role, not only in the number of criminal cases overall, but also in the
number of passengers that fly into and out of the circuit as compared to other

circuits, the failure to review this case and ensure correct application of the statute

will have devastating consequences. Indeed, according to the Airports Council
International, five of the thirteen busiest airports in the nation in 2019 (the last
year unaffected by COVID-19) were in the Ninth Circuit (LAX, San Francisco,

Seattle, Las Vegas, and Phoenix);2 by contrast, only two other circuits have more
than one among the top fifteen busiest airports in the United States, and four

circuits have none.3 So, while flights certainly occur all over the country, the Ninth
Circuit accounts for significantly more than any other circuit and thus is likely to

have more cases involving § 2244(b) charging groping allegations in the air.
Moreover, the fact that this is the only published appellate decision interpreting the

statute necessarily means that it will be the case primarily relied on by all district

courts across the country. There is no need to wait for an express conflict among

the circuits on the correct interpretation of § 2244(b) when the Ninth Circuit’s

majority decision is plainly at odds with this Court’s rules of statutory construction
and the Eighth Circuit’s contrary interpretation of a nearly identical statute.

2 In addition, San Diego, Honolulu, and Portland are all in the top 30. See
North American Airport Traffic Report - Airports Council International - North
America, available at https://airportscouncil.org/intelligence/north-americanairport-traffic-reports/.

3 First Circuit-zero, Second Circuit-one (JFK), Third Circuit-one (Newark),
Fourth Circuit-one (Charlotte), Fifth Circuit-two (Dallas/Fort Worth and HoustonBush), Sixth Circuit-zero, Seventh Circuit—one (Chicago-O’Hare), Eighth Circuit­
zero, Tenth Circuit-one (Denver), Eleventh Circuit-three (Atlanta, Orlando,
Miami), D.C. Circuit—zero.
7

As Judge Collins explained in his dissent from the denial of rehearing en

banc, the panel majority’s decision “[wa]s heavily influenced by the majority’s
strongly held policy views about what the Government should and should not be

expected to prove in criminalizing the offense conduct at issue here,” and its belief

that “the textualist reading of § 2244(b) that Judge Gilman and [he] adopt ‘would
create a shield for sexual predators’ and allow ‘still too-common regressive beliefs
about sexual interaction’ to ‘become defenses.’” Pet. App. 75a (quoting Pet. App.

55a, 56a). But the courts “are not free to disregard the plain language of those laws
or the settled rules of statutory interpretation simply because we dislike the

outcome.” Pet. App. 75.

There is no dispute that sexual contact occurred here. And A.M. certainly

claimed she did not consent. But Mr. Price testified to how and why he believed his
sexual contact with A.M. was fully consensual, and that he had no idea that their
sexual interaction was without A.M.’s permission. The Ninth Circuit panel majority
misapplied multiple canons of statutory construction and ignored or misapplied

several decisions of this Court in concluding that A.M.’s accusation alone—that Mr.
Price misunderstood their interaction and that the contact was not consensual—is
enough for conviction. But “accusation equals guilt” cannot be what Congress

intended, is not what the law permits, and it cannot be how this case ends. The

petition should be granted.

8

CONCLUSION
The petition for a writ of certiorari should be granted.

Respectfully submitted,
CUAUHTEMOC ORTEGA
Federal Public Defender

DATED: August 26, 2021

JONATHAN D. fjBBY
Deputy Federal Public Defender
Counsel of Record
Attorneys for Petitioner

9

i

No. 20-7909

IN THE SUPREME COURT OF THE UNITED STATES
JUAN PABLO PRICE,
Petitioner,
- v. UNITED STATES OF AMERICA

CERTIFICATE OF SERVICE
I, Jonathan D. Libby, a member of the Bar of this Court, hereby certify

pursuant to Sup. Ct. R. 29 that on this 26th day of August, 2021, a copy of Reply
Brief for Petitioner (on Petition for Writ of Certiorari) was emailed and mailed,

postage-prepaid, to the Solicitor General of the United States, United States
Department of Justice, 950 Pennsylvania Avenue, N.W., Room 5614, Washington,
DC 20530-0001, counsel for the Respondent.

Respectfully submitted,
DATED: August 26, 2021

JONATHAN D. LIBBY
Deputy Federal Public Defender
Central District of California
Counsel of Record
321 East 2nd Street
Los Angeles, CA 90012-4202
Telephone: (213) 894-2854
Facsimile: (213) 894-0081
E-mail: Jonathan_Libby@fd.org
Attorneys for Petitioner

